FEDERAL PUBLIC DEFENDER
NORTHERN DISTRICT OF WEST VIRGINIA
U.S. COURTHOUSE
1125 CHAPLINE STREET; RM 208
WHEELING, WV 26003
PHONE: (304) 233-1217
FAX: (304) 233-1242

HUNTINGTON BANK BUILDING
230 WEST PIKE STREET; SUITE 360
CLARKSBURG, WV 26301
PHONE: (304) 622-3823
FAX: (304) 622-4631
Visit Our Web Site at: http://wvn.fd.org

MVB BANK BUILDING
651 FOXCROFT AVENUE; STE. 202
MARTINSBURG, WV 25401
PHONE: (304) 260-9421
FAX: (304) 260-3716

REPLY TO: Martinsburg

September 25, 2020
Via Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Terrence Marsh v. United States of America
Petition for Writ of Certiorari

Dear Mr. Harris:
On behalf of the above-named Petitioner, please find enclosed the original Petition for
Writ of Certiorari with Appendices A, B, and C attached thereto and Motion for Leave to
Proceed in Forma Pauperis. An Affidavit of Mailing and Word Count Certification are also
enclosed. The Solicitor General was mailed two copies of the above-referenced documents on this
date.
Please let me know if you need anything further.
Very truly yours,
s//Brian J. Kornbrath
Brian J. Kornbrath
Federal Public Defender
Enclosures
cc:
Noel Francisco, Solicitor General of the United States
Terrence Marsh

